Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Informed Consent in Tissue Donation

         Expectations and Realities




                         JANUARY 2001
                         OEI-01-00-00440
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. The

inspection reports provide findings and recommendations on the efficiency, vulnerability, and

effectiveness of departmental programs. 


OEI's Boston Office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional

Inspector General. Principal OEI staff included:




BOSTON                                                                         HEADQUARTERS

Russell W. Hereford, Ph.D., Project Leader                            Alan Levine, Program Specialist

Maria E. Maddaloni, M.A., Program Analyst

Elizabeth A. Robboy, M.M.H.S, Program Analyst

China D. Eng, M.P.H., Program Analyst





         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                     EXECUTIVE SUMMARY
PURPOSE
        To assess expectations for and limitations of informed consent for tissue donation.

BACKGROUND
        Human tissue is an important source of medical treatment. The specific number of tissue
        donors in this country is unknown. It is clear, though, that the numbers are growing. In
        1999, more than 20,000 donors provided cadaveric tissue, up from perhaps 6,000 donors
        in 1994. Tissue banks distributed over 750,000 allografts for transplantation in 1999.

        A first step in tissue donation is obtaining consent from a deceased individual’s family.
        Even if the individual had indicated willingness to donate organs (e.g., on the driver’s
        license), it is practice in this country to obtain consent from the next-of-kin.

        Tissue banking is subject to more limited regulation than is the nation’s organ
        procurement system, even though both organ procurement organizations (OPOs) and
        tissue banks are involved in approaching families to request consent for donation. For
        example, the National Organ Transplant Act requires OPOs to meet certain organizational
        and staffing requirements; the Act also requires OPOs to assist hospitals in establishing
        and implementing protocols for making routine inquiries about organ donation by
        potential donors. No similar requirements exist for tissue banks.

        This report responds to a request from the Secretary of Health and Human Services,
        asking the Office of Inspector General to examine issues related to informed consent for
        tissue donation. We base our report on interviews with 30 organizations involved in tissue
        recovery and processing; responses from more than 50 donor families to questions posted
        on an Internet web site; interviews with officials of associations representing sectors of the
        tissue banking industry; and a review of laws, regulations, and association standards for
        tissue banking.

        In this report, we use the term “tissue banks” to refer to entities involved in procuring,
        processing, storing, and distributing tissue. We use the term “tissue” to refer to skin, heart
        valves, and musculoskeletal tissue such as bone, cartilage, ligaments, and tendons.

FINDINGS
The expectations and altruistic motives of donor families are the foundation of
tissue banking. Donor families and tissue bank staff told us that in agreeing to donation,
families make some basic assumptions:
C       Enhancing the lives of others. Tissue will be used to meet important medical needs.
C	      Respect for the donor and the family. The donor’s body will be respected during tissue
        recovery, the gift will be recognized as coming from donated human tissue, and

Tissue Donation: Informed Consent                 i                                   OEI-01-00-00440
        the donor family’s emotional needs will be respected.
C	      Trust in the tissue banking community. Organizations involved in procuring and using
        the donation will act as stewards of the gift.

However, the reality of tissue banking raises some underlying tension with
families’ assumptions.
C	      Commercialization of tissue banking. Large scale financial operations may overshadow
        the underlying altruistic nature of tissue donation.
C	      Tissue viewed as a commodity. After processing, tissue and products containing tissue
        often are marketed and sold as a medical supply, rather than as a donation.
C	      Cosmetic uses of tissue. Some tissue, particularly skin, may be processed into products
        that are used for cosmetic purposes that may not be medically indicated.

Fundamental factors limit the amount of information that is given to families.
C	      Families are asked to give their consent at a point in time when they are extremely
        vulnerable.
C       Families may not wish to receive detailed information about tissue banking.
C	      Obtaining consent and documenting a donor’s medical suitability require time-consuming
        and invasive questioning about a recently deceased loved one.

Current practices in requesting consent raise concerns about how and what
information is provided to families.
C       Tissue banks often request consent over the telephone, rather than in person.
C	      Many tissue banks rely on staff from other organizations to obtain consent. There may be
        little training and accountability of external tissue requestors.
C       Tissue banks provide donor families with little written material at the time of donation.

Until recently, standards governing how families are approached and what they
are told about tissue donation have been nonexistent. However, some advice
and guidance have emerged.
C	      Federal laws and regulations do not address the manner in which tissue banks obtain
        consent.
C	      States’ Uniform Anatomical Gift Acts do not address what information tissue banks
        should provide in obtaining consent.
C	      The National Donor Family Council has proposed key elements of an informed consent
        policy for tissue donation.
C	      Organizations representing the tissue banking industry have issued a statement that
        addresses elements of informed consent. These organizations include the American
        Association of Tissue Banks (AATB), the Association of Organ Procurement
        Organizations, and the Eye Bank Association of America. The AATB is incorporating
        this statement into its accreditation standards for tissue banks.




Tissue Donation: Informed Consent               ii                                 OEI-01-00-00440
CONCLUSION
        Tissue banking and processing practices have gradually diverged from donor families’
        expectations in recent years. The tissue banking industry has expanded and become more
        complex and costly. New ways of using tissue for medical treatment have been
        developed. Processed tissue often is marketed and sold like any other medical product.
        For some people, these practices call into question the non-profit basis of the tissue
        banking community. Despite these changes, the industry’s foundation remains that of
        human tissue altruistically donated by individuals and their families at an extraordinarily
        sensitive time. The special nature of this product, and the circumstances under which it is
        made available, call for steps to be taken above and beyond those that would apply to
        most other business or philanthropic enterprises.

RECOMMENDATIONS
        Importance of increasing donation. The Office of Inspector General has examined
        issues related to organ, tissue, and bone marrow donation, allocation, and transplantation
        for more than a decade. The principles underlying our work have focused consistently on
        enhancing equity for patients, improving access to transplantation, and encouraging
        donation.

        Encouraging donation was of paramount importance to us as we developed our
        recommendations. It is our hope that these recommendations will encourage donation.
        Our recommendations encourage joint action among groups representing the tissue
        banking industry, donor families, and the government.

RECOMMENDATIONS TO THE DEPARTMENT

The Health Resources and Services Administration should work with groups
representing donor families and the tissue banking industry to develop
guidelines for conveying information to families about tissue donation.
        HRSA’s Division of Transplantation supports the development of programs to increase
        donation. In that role, HRSA has gained considerable expertise about effective practices
        in requesting consent. The agency could act as a resource to tissue banks and families.
            HRSA’s efforts could focus on such areas as:
C	      Identifying principles and guidelines that should underpin consent requests, such as those
        outlined recently by the National Donor Family Council and by industry groups;
C	      Making suggestions as to the type, format, and content of written information about
        donation that tissue banks could share with families.
C	      Making recommendations on information that would be useful for training tissue bank
        staff and external requestors; and
C	      Making recommendations on assessment tools that would be useful in evaluating the
        effectiveness of requestors.



Tissue Donation: Informed Consent                iii                                OEI-01-00-00440
The Health Care Financing Administration should address informed consent for
tissue donation through the Medicare conditions of participation.
        HCFA requires hospitals to assure that the family of each potential donor is aware of its
        options to donate tissues, organs, and eyes. Elsewhere in this report, we call upon donor
        family groups, the tissue banking industry, and HRSA to develop guidelines for conveying
        information to families about tissue donation. HCFA could use these guidelines as it
        provides information about the conditions of participation for organ, tissue, and eye
        donation. The agency could publicize these principles through the HCFA Internet site.

        In the longer term, the agency may wish to examine the Medicare conditions of coverage
        governing organ procurement organizations. In that examination, the agency could
        consider additional requirements to strengthen working relationships between OPOs and
        tissue banks. Such requirements might include:
C       Holding OPOs responsible for informed consent for tissue donor families when they
        request consent on behalf of tissue banks; and
C       Requiring OPOs to include tissue banks in the training that they conduct for designated
        requestors.

RECOMMENDATIONS TO THE INDUSTRY

At the time of obtaining consent, tissue banks should provide families with
written materials that provide fuller disclosure about the uses of tissue and the
nature of the gift.
        Tissue banks should give written material to families at the time the banks ask for consent
        to donation, or in the days immediately following the request. The material should be
        appropriately thorough. It would serve as one way to supplement the information that
        requestors provide to the family during their conversation about donation, while providing
        requestors with flexibility to adapt that conversation to the unique needs and responses of
        each donor family. At a minimum, this material should include:
C       A copy of the signed consent form;

C       Written material on how to follow up with the tissue bank if concerns arise;

C       A full description of the uses to which donated tissue may be put; and

C       A list and description of other companies and entities with which the bank has

        relationships for processing and distributing tissue.

Tissue processors and distributors should ensure that information accompanying
their product clearly indicates it is derived from donated human tissue.
        Such a step would require only minor changes in packaging and marketing materials. But
        it would go a long way towards showing ongoing respect for the donor, the family, and
        the gift of donation. Tissue banks should:
C	      Indicate clearly on all tissue packaging that the contents derive from donated human
        tissue; and


Tissue Donation: Informed Consent                iv                                 OEI-01-00-00440
C	      Indicate clearly on all marketing and informational material that these products derive
        from donated human tissue.

Tissue banks should foster greater accountability for the performance of those
who request consent for donation.
        Responsibility for ensuring that requestors are providing accurate, sensitive, and
        appropriate information rests with tissue banks and the processors with which they work.
        These organizations should:
C	      Ensure that requestors — both from their own organizations and from hospitals — are
        fully and appropriately trained;
C       Provide continuing education for requestors; and
C	      Conduct an ongoing assessment of requestor performance as a means of ensuring that they
        are providing full and accurate information to families approached for donation.

The tissue banking industry should work with groups representing donor families
to explore a process for periodic public disclosure about tissue banks’ financing.
        The purpose of the examination we recommend here is to respond to family and general
        public concerns about knowing the sources of funding for tissue banks and other entities
        with which the bank has financial arrangements. The examination would consider whether
        financial information would be useful as part of a package of information provided to
        donor families. The examination would consider:
C	      What types and how much financial information would be useful for families and
        individuals in making decisions about donation;
C	      The advantages and disadvantages of disclosure, including the potential impact of financial
        disclosure on donation;
C	      Whether the information should be provided in all cases, or only if requested by a family;
        and
C       The content, style, and format of disclosure.

COMMENTS ON THE REPORT
        We received comments on a draft of this report from the Department of Health and
        Human Services. They are supportive of our findings and recommendations. The full text
        is included in Appendix C.

        Our work in tissue banking continues. We will maintain an active watch on how the tissue
        banking community responds to the concerns we have raised.




Tissue Donation: Informed Consent                v                                  OEI-01-00-00440
                             TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Family expectations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          Tension between expectations and reality . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          Limits on information provided . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          Concerns about requesting consent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          Limited guidance on requesting consent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS


          Department of Health and Human Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          Tissue banking industry . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




APPENDICES

          A: National Kidney Foundation/Donor Family Council . . . . . . . . . . . . . . . . . . . . . . . . 17


          B.	 American Association of Tissue Banks, Association of Organ Procurement

              Organizations, Eye Bank Association of America . . . . . . . . . . . . . . . . . . . . . . . . . 19


          C. Comments from the Department of Health and Human Services . . . . . . . . . . . . . . . 22


          D. Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





Tissue Donation: Informed Consent                                                                                  OEI-01-00-00440
                              INTRODUCTION
PURPOSE

        To assess expectations for and limitations of informed consent for tissue donation.

BACKGROUND

Transplantation of Human Tissue

        Human tissue is an important resource used in medical treatment. Physicians and dentists
        use cadaveric human tissue for a variety of medical purposes. Donated skin can meet
        critical needs in healing burn victims and in reconstructive surgery. Donated bone can be
        implanted to replace cancerous bone, for knee and hip replacements, and for spinal
        surgery; it can be processed into powder for use in dental surgery. Donated heart valves
        can replace defective valves in young children, saving their lives.

        The exact number of tissue donors in this country is unknown. It is clear, though, that the
        numbers are increasing. In 1999, more than 20,000 donors provided cadaveric tissue, up
        from perhaps 6,000 donors in 1994. Tissue banks distributed over 750,000 allografts for
        transplantation in 1999.

Consent for Donation

        A first step in tissue donation is obtaining the consent of a deceased individual’s family.
        Even if the individual had indicated willingness to donate organs and tissues (e.g., on the
        driver’s license), it is practice in this country to obtain consent from the next-of-kin. A
        family may refuse to give consent, or it may give consent for donation of all or only some
        tissues.

        Tissue banking is subject to more limited regulation than the nation’s organ procurement
        system, even though both organ procurement organizations (OPOs) and tissue banks are
        involved in approaching families for consent. For example, the National Organ Transplant
        Act requires OPOs to meet certain organizational and staffing requirements; the Act also
        requires OPOs to assist hospitals in establishing and implementing protocols for making
        routine inquiries about organ donation by potential donors. No similar requirements exist
        for tissue banks.1

Concerns about Tissue Banking

        Several press reports in the Spring of 2000, appearing in the Orange County Register and
        the Chicago Tribune, raised a number of concerns about tissue banking. A particular
        focus of these articles related to financial aspects of the tissue banking industry. Several
        members of Congress asked the Secretary of Health and Human Services to examine the

Tissue Donation: Informed Consent                 1                                  OEI-01-00-00440
        tissue banking industry, including the extent to which families were informed about
        financial arrangements or uses to which tissue might be put.

This Inquiry

        The Secretary asked the Office of Inspector General to review two aspects of tissue
        banking: consent for donation and the overall regulatory structure governing the industry.
        This report responds to the first of those requests, focusing on informed consent. Our
        companion report, Tissue Banking Oversight (OEI-01-00-00441), provides a profile of
        the oversight system for tissue banking and addresses limitations in that system.

        We use the term “tissue” to refer to skin, heart valves, and musculoskeletal tissue such as
        bone, cartilage, ligaments, and tendons. Our report does not address eyes and
        reproductive tissue.

METHODOLOGY

        We conducted interviews with senior staff from 30 organizations involved in obtaining,
        processing, and distributing human tissue; 25 of these organizations were involved in
        obtaining consent and recovering human tissue.2 Our interviews focused on their policies,
        practices, and experiences relative to consent.

        With assistance from the National Kidney Foundation, we posted a series of questions on
        the web site of the National Donor Family Council. These questions sought to provide us
        with a donor family perspective of experiences with the donation process. We received 50
        responses from donor families through this web site. We recognize that the findings from
        this posting do not constitute a random sample from which projections can be made.
        Nevertheless, we believe that the responses provide important information and a valuable
        perspective on the process of obtaining consent.

        We interviewed officials and staff, and reviewed documents, from associations involved
        with tissue banking, including the American Association of Tissue Banks (AATB),
        National Donor Family Council, Eye Bank Association of America, Association of Organ
        Procurement Organizations, and North American Transplant Coordinators Organization.

        We reviewed State and Federal laws and regulations related to tissue banking, and
        standards from the AATB.

        We conducted this inspection in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.




Tissue Donation: Informed Consent                2                                   OEI-01-00-00440
                                     FINDINGS

The expectations and altruistic motives of donor families are the
foundation of tissue donation. Donor families and tissue bank staff
told us that in agreeing to donation, families carry some basic
assumptions:

Expectation that the donation will enhance the lives of others.

        Families expect that their loved one’s tissue will be used in meeting important medical
        needs. The primary expectation is that the tissue will be used for transplantation, as a way
        of improving the lives of people with medical needs. Many families also provide consent
        to use tissue for medical research and medical education.

        Families may view donation as a way of creating something positive from the death of
        their loved one. The mother of one tissue donor captured this view when she told us, “If
        my son helped just one person live a better life, then his donation was worth it.” This
        expectation is reflected in the comments we received from a number of donor families.
        These families hoped for some type of follow-up with people who had benefitted from
        their loved one’s gift of tissues, as a way of confirming the usefulness of and appreciation
        for the gift.

Respect for the donor and the family.

        Respect has two broad components. First, families anticipate that the donor will be
        respected. This respect should last through the entire donation process. It includes, for
        example, respect for the donor’s body during tissue recovery. Tissue recovery requires
        invasive surgery. For families, respect entails that no more harm is done to the body than
        absolutely necessary.

        During processing, distribution, and transplantation, respect entails that the gift be
        recognized as coming from a donation of human tissue. Musculoskeletal tissue often is
        processed into many forms. These forms include bone screws, dowels, and bone chips,
        which have many different medical uses. These final products often bear little resemblance
        to human tissue; in fact, they look more like tools, hardware, supplies, and devices than
        what most people would call human tissue. The mother of a donor exemplified the
        concern that respect be maintained for the donor when she told us, “That ‘screw’ is not a
        screw to me — it came from somebody’s loved one or child.”

        Second, donor families expect that their own needs will be respected by the tissue banks.
        Respect for the family includes discussing the option of donation in a sensitive manner,
        answering all questions, and ensuring that the timing of and plans for funeral arrangements
        are not disrupted by tissue recovery.


Tissue Donation: Informed Consent                 3                                  OEI-01-00-00440
        The AATB’s Statement of Principles reflects the importance that the association and its
        members accord to the importance of respect. Member banks pledge “to honor and treat
        with respect the gifts that have been donated and to reflect this in all activities related to
        cell and tissue procurement.”3

Trust in the organizations involved in procuring and using the donation.

        At the time of their loss, families are asked to place enormous trust in tissue banks. Prior
        to requesting donation, it is unlikely that any relationship existed between the donor family
        and the tissue bank. Quite possibly, the family may never have heard of tissue donation.
        Tissue banks request a donation of their loved one’s body at the time the family is
        grieving. As a member of one donor family noted, “It is an extremely emotional display of
        trust, to allow someone to take parts of a loved one.”

        Tissue banks we spoke with echoed the sentiments of donor families. One tissue bank
        director viewed tissue procurement as a public service and said that the bank has the
        responsibility for ensuring that tissue is “used for the right purposes.” Another tissue bank
        director shared her view of this responsibility: “We are stewards of the gift the family is
        giving, and it is up to us to handle it in an appropriate manner.”


However, the reality of tissue banking raises some underlying tension
with families’ assumptions.

        Commercialization of tissue banking

        Families view tissue donation as an altruistic act. This perspective is buttressed by the
        National Organ Transplant Act, which states that it is “unlawful to acquire, receive or
        otherwise transfer any human organ [including several defined types of tissue] for valuable
        consideration for use in human transplantation.”4 Although the act permits recovery of
        reasonable costs associated with activities such as retrieval and processing, concerns have
        been raised about whether individuals and firms may be receiving unreasonable financial
        enrichment from procuring, processing, or distributing the altruistic donation.5

        No one denies that there are costs associated with processing tissue, conducting research,
        developing new products and uses, and advancing science. However, the large-scale
        financial aspects of tissue banking create tensions with an altruistic act.

        These tensions have particular relevance to the operation of for-profit firms in what is, at
        least nominally, an altruistic enterprise based on donation. Publicly-traded companies
        have raised capital and brought entrepreneurial energy to tissue processing, leading to the
        development of new processes and products. Yet, it is precisely at this point that tension
        arises. The concern may be best characterized as unease about a focus on the “bottom
        line,” as portrayed in the following question: If a company’s primary interest is financial
        benefit to its stockholders, is it making choices to put tissue to more lucrative uses over


Tissue Donation: Informed Consent                  4                                   OEI-01-00-00440
        medical needs?6

        A second facet of tension with commercialization relates to the level of salaries and costs
        incurred by both non-profit and for-profit firms. Although reasonable costs are permitted,
        there is no definition of, and undoubtedly no consensus about, what constitutes
        “unreasonable costs.” In fact, no guidelines are in place regarding disclosure of costs, and
        no comparative data are available publicly on the range of costs that would permit such a
        determination.

        Finally, the industry is intensely competitive, with firms establishing proprietary patents on
        a number of products and processes. Some observers view this as primarily an effort to
        gain competitive advantage and market share in the distribution of tissues.

        In a vacuum, these issues do not raise concerns. Yet in an industry that is premised on
        donation of parts of a loved one’s body, it should not be surprising that donor families
        could feel misled as they question why “everyone is making money off of this altruistic gift
        except the donor and the donor’s family.”

        The importance of concerns about commercialization for informed consent relates to
        whether families may wish to know about commercial relationships that exist between the
        agency to which it makes an altruistic donation, and an entity — be it non-profit or for-
        profit — that realizes revenue from the gift. If they are not made aware of these
        relationships, it may be difficult to say that their consent truly is informed.

Tissue viewed as a commodity

        Maintaining respect for the donor and the donor’s family is an underpinning of the tissue
        system. As we discuss above, tissue is processed extensively for many different uses. The
        marketing of human tissue as a commodity bears particular relevance to donor families’
        assumption that their loved one’s tissue will be treated with respect and honor, and that it
        will be respected by the users and the recipients of tissue.

        The packages in which human tissue is supplied — bottles, vials, containers shrink-
        wrapped in plastic — resemble many other medical supplies. The labeling does state that
        the contents are human tissue, but this is related to concerns about safety and disease
        transmission rather than respect for the donor. The packaging does not indicate that the
        enclosed materials derive from donated human tissue.

        We reviewed marketing materials from both for-profit and non-profit companies. These
        product brochures look like typical medical supply catalogues, contributing to a
        perception that tissue is no different from other supplies. As with the packaging, the
        marketing materials rarely indicate that the materials derive from donated human tissue.

Cosmetic uses of tissue
        A number of products used in reconstructive surgery utilize donated tissue, particularly


Tissue Donation: Informed Consent                 5                                   OEI-01-00-00440
        skin. These products are used in procedures that most people would, no doubt, consider
        medically appropriate and necessary. Examples of such procedures include alleviating
        serious scarring or constructing a bladder sling for treatment of urinary incontinence.

        On the other hand, there clearly are some uses of these products that many people would
        consider to be non-essential cosmetic uses.7 It is not clear how much tissue goes for such
        cosmetic uses; because the actual use of these products is determined by physicians and
        patients, tissue banks that manufacture them do not have that information. However, a
        family may be reluctant to give its consent for donation if it is aware that the gift would be
        used for purposes that are not medically indicated.

        The American Medical Association’s policy provides a useful framework for considering
        the differences between cosmetic and reconstructive surgery. That policy states that
        “cosmetic surgery is performed to reshape normal structures of the body in order to
        improve the patient's appearance and self-esteem. Reconstructive surgery is performed on
        abnormal structures of the body, caused by congenital defects, developmental
        abnormalities, trauma, infection, tumors or disease. It is generally performed to improve
        function, but may also be done to approximate a normal appearance.”8


Fundamental factors limit the amount of information that is given to
families.

Families are asked to give their consent at a point in time when they are
extremely vulnerable.
        The recent, often sudden and unexpected, death of a loved one means that families are
        likely to be distraught when they are asked for consent to donate. In the face of sudden
        tragedy, they may simply be unable to understand detailed information about tissue
        donation.

        Tissue donation is a complex topic. Tissue banks must obtain consent for donation within
        hours following the death of a loved one. Because the family may be in shock, discussing
        multiple aspects of tissue donation and tissue banking — recovery, processing,
        distribution, commercial relationships — may go well beyond the capacity of families to
        comprehend what they are hearing. The father of a tissue donor echoed this sentiment
        when he commented to us, “I doubt donor families can process much information; they
        hear very little at a time when they are immersed in profound shock and grief.”

At the same time, families may not wish to receive detailed information about
tissue banking.
        Often, families know they want to consent to donation, but do not want to hear specific
        details about the process. As one tissue donor mother told us, “I really didn’t need any
        more information than what was provided; frankly, I wouldn’t have been able to deal with
        much more at that point.” Her thoughts were echoed by a tissue bank director who told

Tissue Donation: Informed Consent                 6                                   OEI-01-00-00440
        us that it is crucial to be able to give families as much or as little information as they want,
        depending on where they are in the grief process.

        Tissue bank staff with whom we spoke cited the balance they must strike when speaking
        with families. Much information needs to be communicated to the family at the time of
        consent; at a minimum, authorization for removal of specific tissues is required. Families
        also must agree to whether the tissue may be used only for transplantation, or for other
        uses such as research and education.

        Tissue bank staff told us that families generally have two primary concerns: whether the
        family will incur any costs for donating tissue and whether the body will be suitable for an
        open-casket viewing. They noted that it is rare for families to ask about other concerns.
        On the other hand, some families may wish to have more information to help them reach a
        decision, or they may wish to receive more information that they could reflect upon at a
        later date. The challenge for those seeking consent is to gauge how much detail a
        particular family wishes to receive.

Obtaining consent and documenting a donor’s medical suitability require time-
consuming and invasive questioning about a recently deceased loved one.
        Because tissue can transmit disease, FDA requires tissue banks to screen donors for
        evidence of behaviors that place them at high risk for HIV and hepatitis.9 This screening
        requires completion of a lengthy medical and social history questionnaire as part of
        determining donor suitability. Tissue bank personnel who administer the medical and
        social history questionnaire to families note that the process may take as long as an hour
        or more to complete. The tissue bank staff must administer this questionnaire shortly after
        the family consents to donation.

        Donor families must answer questions about the deceased’s medical history and personal
        behaviors, including uncomfortable questions about drug and alcohol use, and about
        sexual behavior. Under any circumstances, questions such as these are intrusive. After
        the death of a loved one, this effect undoubtedly is amplified.


Current practices in requesting consent raise concerns about how and
what information is provided to families.

Many tissue banks rely on staff from other organizations to obtain consent.
        We interviewed staff from 25 banks that recover tissue; 14 of these banks rely primarily on
        their own staff to request consent from families, and 11 banks rely on others to make the
        requests. The American Association of Tissue Banks conducted an informal survey of its
        members. AATB found that 42 percent of accredited tissue banks use their own staff to
        request consent for tissue donation, while the other 58 percent of banks use individuals
        not employed by the bank for requesting.

        About half of the external requestors are staff from organ procurement organizations

Tissue Donation: Informed Consent                  7                                    OEI-01-00-00440
        (OPOs). OPOs play an important role in tissue donation, even if they do not operate a
        tissue bank. Recent changes to the Medicare conditions of participation for hospitals gave
        OPOs an important gatekeeping function by requiring a hospital to notify its OPO of all
        deaths. Thus, even for persons who do not meet the stringent criteria for organ donation,
        OPOs play a role in referring the call to the appropriate tissue bank and, in some cases,
        seek consent from the family for tissue donation.10

        External requestors include staff from telephone triage agencies with which the tissue bank
        contracts for the specific purposes of requesting consent. Tissue banks also rely on
        hospital staff, primarily nurses, chaplains, and social workers, to obtain consent from
        families. Tissue banks may wish to keep hospital staff involved in and committed to
        donation. These staff may well have been in close contact with the family, and families
        may be more trusting and receptive to donation when it is discussed by these caregivers.

        Other tissue banks prefer to handle the consent process themselves. The director of one
        OPO that also operates a tissue bank told us she “simply feels more comfortable knowing
        that trained coordinators are doing the requesting.” This approach also benefits hospitals;
        it is a way of relieving a hospital of liability for its own staff should problems arise.

Tissue banks often request consent over the telephone, rather than in person.
        Consent requests for tissues contrast sharply with requests for organ donation. In
        requesting organ donation, OPO staff seek consent from the family while they are still at
        the hospital. OPO staff often have spent long hours with the family prior to disconnecting
        the ventilator, and they likely have established a rapport with that family.

        In our interviews, 16 of 25 tissue banks that recover tissue said that they primarily request
        consent over the telephone, rather than in person. In most cases, tissue banks make these
        requests after the family has left the hospital. Tissue bank staff told us that it is more
        productive to give the family time to return to the familiar surroundings of home, rather
        than the coldness of a hospital. At a practical level, it also would be quite difficult for the
        tissue bank staff to travel to every hospital when someone has died in order to request
        donation.

There may be little training and accountability of external requestors.
        Tissue banks train and monitor their own staff who request consent. Training programs
        typically include classroom lectures, written materials, presentations, observing other
        requestors, role playing, and mentoring by seasoned requestors. Many banks send
        requestors to training courses offered by organizations with longstanding expertise in the
        field. Most tissue banks we spoke with also provide their staff with continuing education.

        Training programs for tissue requestors not employed by the bank tend to be briefer.
        Training programs for external requestors at tissue banks we spoke with ran about 4 hours
        on average. Training generally comprises presentations by tissue bank staff and covers
        topics including how to interact with families, the use of tissues, and how tissues are
        recovered. A few tissue banks offer longer programs that include role-playing exercises.


Tissue Donation: Informed Consent                 8                                    OEI-01-00-00440
        After the initial training, only a small number of tissue banks we spoke with offer
        continuing education or follow-up training to external tissue requestors.

        Training for tissue donation also may take place through an OPO’s designated requestor
        training program. Yet, as we have shown elsewhere, few OPOs conduct this training.11
        Tissue bank staff we interviewed also indicated that OPOs give only limited attention to
        training about requesting tissue donation, because organ donation is often seen as a higher
        priority than tissue donation. This difference in emphasis is likely to be more pronounced
        in areas where there is competition between the tissue bank and the OPO.

        Providing in-depth training of external requestors faces some major constraints. Tissue
        bank directors we interviewed noted that it is difficult for hospital staff to take time from
        their duties for intensive training as a tissue requestor. Additionally, tissue banks that rely
        on hospital staff to request consent may be unable to select the hospital staff to be trained.
        Thus, staff who may not want to be tissue requestors may be trained for the process and,
        subsequently, may do a poor job of it.

        Even among those tissue banks that train external requestors, we found that few actively
        assess their performance. The primary vehicle we found for assuring accountability was
        that some tissue banks use their own staff to contact the donor family at home to complete
        the medical-social history questionnaire. These banks told us that having their own staff
        speak with the donor family provides a checkpoint for the consent process, because staff
        can answer questions, provide more information, and reaffirm the consent.

Tissue banks provide donor families with little written material at the time of
donation.
        Few tissue banks routinely give families a copy of the signed consent form. The consent
        form, however, is the legal authorization governing the removal of tissue and specifying
        purposes for which the tissue may be used. One tissue bank told us that it asks family
        members if they want to receive more information. Other tissue banks indicated that they
        would give the family the form if someone requested it. However, requiring a family to
        make such a request places it in a deferential position, when the bank could proactively
        make the consent form available.

        Following donation, it is general practice for tissue banks to send families a letter thanking
        them for the gift and expressing condolences. We reviewed copies of these letters from 11
        tissue banks; about half gave a general description of which tissues were recovered, and
        the other half conveyed information in broad, generic terms about how tissue can be used
        to improve people’s lives. Many of the tissue banks we spoke with provide additional
        materials about grieving and about support groups.

        Aside from this letter, tissue banks provide little additional written information to families
        about tissue use, processing, or other entities with which they have financial arrangements.
        Tissue bank staff we spoke with told us they are hesitant to provide more information to
        families, either at the time of consent or afterwards, because the family is


Tissue Donation: Informed Consent                  9                                   OEI-01-00-00440
        grieving and may not want to think about the donation.

        Many donor families told us that consenting to donation was a positive outcome that came
        from their loved one’s death. Because families may not comprehend everything that is
        told to them at the time of donation, more information may be beneficial at a later date.
        One donor mother captured this sentiment when she told us, “I know there are many
        families who would like to have some reading material to refer to when or if they are
        ready, since there is so much information that is not heard within this horrific moment.”

Until recently, standards governing how families are approached and
what they are told about tissue donation have been nonexistent.
However, some advice and guidance have emerged.

Federal laws and regulations do not address the manner in which tissue banks
obtain consent.
        The Health Care Financing Administration has no statutory or regulatory authority over
        tissue banks. However, the 1998 Medicare conditions of participation for hospitals
        relating to organ, tissue, and eye donation require hospitals and tissue banks to work
        together to establish donor suitability criteria. The regulations also require hospitals to
        ensure that all families of potential donors are informed of their options to donate organs,
        tissues, and eyes, and that programs for training hospital-based requestors are designed in
        conjunction with the local tissue banking community.12 However, the regulation does not
        provide specific guidelines on the content, circumstances, or manner of approaching donor
        families.

        The Health Resources and Services Administration (HRSA) provides resources and
        support to the transplantation community. HRSA recently published a resource guide that
        provides information and approaches on training hospital staff and procurement agencies
        in working and communicating with grieving families as part of the donation process.13

        The Food and Drug Administration’s (FDA) authority over tissue banks derives from
        Public Health Service Act provisions authorizing regulations to prevent the spread of
        communicable diseases. The agency requires that donor screening and testing for HIV-1
        and -2 and for Hepatitis B and C. FDA regulations do not address the issue of obtaining
        consent for donation; however, the regulations do require tissue banks to interview
        someone such as a close relative about the donor’s medical history and social behavior.14

States’ Uniform Anatomical Gift Acts do not address what information tissue
banks should provide in obtaining consent.
        All States and the District of Columbia have enacted versions of the Uniform Anatomical
        Gift Act.15 These laws establish procedures for competent adults to make anatomical gifts
        by completing and signing a legal document. These gifts are irrevocable at the donor’s
        death. The laws also include some stipulations on obtaining consent, such as the



Tissue Donation: Informed Consent               10                                  OEI-01-00-00440
        order in which next-of-kin may make decisions, documentation required, or the number of
        persons who must provide legal witness. However, these laws do not address the content
        of informed consent.

        The gift acts in some States specify the informed consent document that must be signed.
        The consent form itself, however, is a legal document, not a mechanism for sharing
        pertinent information about donation with the family.

The National Donor Family Council has proposed key elements of an informed
consent policy for tissue donation.
        The National Donor Family Council (NDFC) represents about 8,000 donor families. The
        NDFC recently approved a position statement on tissue donation that addresses important
        considerations for discussing donation with donor families. The full position statement
        appears in Appendix A. Key elements include:
C       Explanations on how tissue is recovered, processed, stored and distributed;

C       Explanations that the tissue may be used or modified for transplantation;

C       Explanation that the family may limit or restrict the use of tissue; and 

C       Requirements that the consent form be reviewed with families and that a copy be offered

        to the family.

Organizations representing the tissue banking industry have issued a statement
that addresses elements of informed consent to be included in discussions with
families.
        The American Association of Tissue Banks (AATB), the Association of Organ
        Procurement Organizations, and the Eye Bank Association of America, issued a joint
        statement in December, 2000. The full position statement appears in Appendix B.
        AATB, which accredits 58 cadaveric tissue banks, is incorporating the elements contained
        in this statement into its accreditation standards. The updated standards are scheduled for
        publication in January, 2001.

        The statement addresses basic elements of informed consent which should be provided to
        all families. These basic elements include:
C       Identification of specific tissues that are being requested for donation;
C       Explanation that retrieved tissues may be used for transplantation, therapy, research, or
        education; and
C       A general description of the recovery process.

        The statement also recognizes that families may seek additional information about
        donation. If so, additional explanations should be provided to address such issues as:
C       The possibility that the gift may take a different form than originally recovered;

C       Transplantation may include reconstructive and aesthetic surgery; and

C       Multiple organizations (non profit and/or for profit) may be involved in facilitating the gift.




Tissue Donation: Informed Consent                 11                                   OEI-01-00-00440
                                    CONCLUSION

        Tissue banking and processing practices have gradually diverged from donor families’
        expectations in recent years. For donor families, the altruistic donation of tissue from a
        loved one is a charitable act. Donation is made with few expectations other than that it
        will be used to enhance the lives of others, that the donor will be treated with respect, and
        that the organizations with whom tissue banks work will take special care to ensure that
        the gift is used for these purposes.

        Today’s tissue banking industry and the beneficial uses of human tissues and related
        products have become more complex and costly. New ways of using tissue for medical
        treatment have been developed. Tissue banking has been infused with capital and
        entrepreneurial practices. Processed tissue often is marketed and sold like any other
        medical product. For some, these practices call into question the non-profit basis of the
        tissue banking community.

        Despite these changes, the foundation of the industry remains that of human tissue freely
        donated by individuals and their families at a most difficult and extraordinarily sensitive
        time.

        The special nature of human tissue, and the circumstances under which it is made
        available, call for certain steps to be taken above and beyond those that would apply to
        most other business or philanthropic enterprises. In the following section, we share our
        recommendations that take these into account.




Tissue Donation: Informed Consent                12                                   OEI-01-00-00440
                       RECOMMENDATIONS

Importance of Increasing Donation

        The Office of Inspector General has examined issues related to organ, tissue, and bone
        marrow donation, allocation, and transplantation for more than a decade. The principles
        underlying our work have consistently focused on enhancing equity for patients,
        improving access to transplantation, and encouraging donation.

        Encouraging donation was of paramount importance to us as we developed these
        recommendations. It is our hope that these recommendations will encourage donation.
        Our recommendations encourage joint action among groups representing the tissue
        banking industry, donor families, and the government.

The Department of Health and Human Services

The Health Resources and Services Administration should work with groups
representing donor families and the tissue banking industry to develop
guidelines for conveying information to families about tissue donation.

        HRSA’s Division of Transplantation supports the development of programs to increase
        donation. In that role, HRSA has gained considerable expertise about effective practices
        in requesting consent. The agency could act as a resource to convey information about
        donation to tissue banks and families.

        HRSA’s efforts could focus on such areas as:

C	      Identifying principles and guidelines that should underpin consent requests, such as those
        outlined recently by the National Donor Family Council and jointly by the American
        Association of Tissue Banks, Association of Organ Procurement Organizations, and the
        Eye Bank Association of America;
C	      Making suggestions as to the type, format, and content of written information about
        donation that tissue banks could share with families;
C	      Making recommendations on information that would be useful for training tissue bank
        staff and external requestors; and
C	      Making recommendations on assessment tools that would be useful in evaluating the
        effectiveness of requestors.

The Health Care Financing Administration should address informed consent for
tissue donation through the conditions of participation for hospitals and for
organ procurement organizations.
        As we note above, HCFA requires hospitals to assure that the family of each potential
        donor is aware of its options to donate. This requirement applies to tissue donation, as

Tissue Donation: Informed Consent               13                                  OEI-01-00-00440
        well as to donation of organs and eyes.

        Elsewhere in this report, we recommend that HRSA work with donor family groups and
        the tissue banking industry to develop guidelines for conveying information to families
        about tissue donation. HCFA could use these guidelines as it provides information about
        the hospital conditions of participation for organ, tissue, and eye donation. The agency
        could publicize these principles through the “Questions and Answers” document posted on
        the HCFA Internet site. For example, the agency may wish to encourage hospitals to
        include a protocol for informed consent in their agreements with tissue banks, using the
        recommended guidelines in those protocols.

        In the longer term, the agency may wish to examine the Medicare conditions of coverage
        governing organ procurement organizations. In that examination, the agency could
        consider whether it would be beneficial to include additional requirements to strengthen
        working relationships between OPOs and tissue banks. Such requirements might include:
C	      Holding OPOs responsible for informed consent for tissue donor families when requesting
        consent on behalf of tissue banks; and
C	      Requiring OPOs to include tissue banks in the training that they conduct for designated
        requestors.


The Tissue Banking Industry

At the time of obtaining consent, tissue banks should provide families with
written materials that provide fuller disclosure about the uses of tissue and the
nature of the gift.

        Tissue banks could do a better job of providing basic information to families, either at the
        time they ask them to consent to donation, or in the days immediately following that
        decision. At a minimum, this material should include:

C	      A copy of the signed consent form. We believe that this is a basic legal protection for the
        family, as well as a recognition of the nature of the gift to which they have consented;
C	      Written information to the family on how it can follow up with the tissue bank in the case
        concerns arise;
C       A full description of the uses to which donated tissue may be put; and
C	      A list and description of other entities with which the bank has relationships for processing
        and distributing tissue.

        Written materials should be appropriately thorough. Such materials would serve as a way
        to supplement the information that requestors provide to the family during their
        conversation about donation, while providing requestors with the flexibility to adapt that
        discussion to the unique needs and responses of each donor family.




Tissue Donation: Informed Consent                 14                                 OEI-01-00-00440
Tissue processors and distributors should ensure that information
accompanying their product clearly indicates it is derived from donated human
tissue.

        The FDA does not currently have labeling requirements for packaged tissue, and the
        AATB’s standards (which apply only to banks accredited by the association) address
        labeling within the context of ensuring that users know it is a biologically-based product,
        capable of transmitting disease. Neither set of standards addresses donor families’
        concerns that recognition be given to the fact that the products are the result of a freely
        made donation of human tissues.

        The following steps could help to address perceived concerns that donated human tissue is
        no different from any other medical product. Tissue banks should:

C	      Indicate clearly on all tissue packaging that the contents derive from donated human
        tissue; and
C	      Indicate clearly on all marketing and informational brochures that these products derive
        from donated human tissue.

        This recommendation responds to concerns that tissue is viewed as a commodity, rather
        than an altruistic donation. Implementing it would require only minor changes in
        packaging and marketing materials. But it would go a long way towards showing ongoing
        respect for the donor and the gift of donation.

Tissue banks should foster greater accountability for the performance of those
who request consent for donation.

        We found wide variation in practices among tissue banks with respect to how consent for
        donation is requested, who requests consent, and how these individuals are trained and
        monitored. There is no doubt that the responsibility for ensuring that requestors are
        providing accurate, sensitive, and appropriate information rests directly with the tissue
        bank. To ensure greater accountability of requestors, tissue banks should:

C	      Ensure that their requestors are fully and appropriately trained. This applies both to
        requestors from their own organizations as well as other entities, such as hospitals;
C       Provide continuing education for requestors; and
C	      Conduct ongoing assessments of requestor performance to ensure that they are providing
        full and accurate information to families approached for donation.

The tissue banking industry should work with representatives of groups
representing donor families to explore a process for periodic public disclosure
about tissue banks’ financing.

        Non-profit entities are already required to disclose information about the sources and uses
        of funds received; publicly-owned businesses submit annual public reports to the Securities
        and Exchange Commission. These disclosures contribute to public accountability


Tissue Donation: Informed Consent                15                                  OEI-01-00-00440
        and can serve as a basis for building greater trust among donors, families, and tissue
        banks.

        The purpose of the examination we recommend here is to respond to family and general
        public concerns about knowing the type and extent of financial arrangements which the
        tissue bank has with other entities, both nonprofit and for profit. The examination would
        consider whether financial information would be useful as part of a package of information
        provided to donor families. The examination would consider:

        C What types and how much financial information would be useful for families and
          individuals in making decisions about donation;
        C The advantages and disadvantages of financial disclosure, including its potential impact
          on donation; and
        C The content, style, and format of disclosure.


COMMENTS ON THE REPORT
        We received comments on a draft of this report from the Department of Health and
        Human Services. They are supportive of our findings and recommendations. The full text
        is included in Appendix C.


        Our work in tissue banking continues. We will maintain an active watch on how the tissue
        banking community responds to the concerns that we have raised.




Tissue Donation: Informed Consent                16                                  OEI-01-00-00440
                                                                                               APPENDIX A




                                NATIONAL DONOR FAMILY COUNCIL
                                     EXECUTIVE COMMITTEE

                      POSITION STATEMENT ON TISSUE DONATION
      The National Donor Family Council (NDFC) of the National Kidney Foundation recognizes
      and supports tissue donation as an end-of-life option for donor families and recognizes its life-
      enhancing capacity to help thousands who are awaiting tissue transplantation.

      The NDFC strives to enhance the sensitivity and effectiveness of the organ and tissue
      procurement process. To further this mission, the NDFC believes that tissue donation should
      always be treated as a gift of life. We believe that the tissue community as a whole must
      promote sensitivity to and support for organ and tissue donor families.

      While the NDFC recognizes that financial resources are an important factor in maintaining the
      highest quality of tissue services, it is our position that tissues must be collected, processed,
      stored and distributed in an efficient manner that minimizes costs and maximizes the benefit
      to patients. The NDFC believes that donated tissue must be used in a way that promotes
      healing for people with the greatest need.

      The tissue community should resist the tendency to make the generous gift of donated tissue
      a commodity. Professionals should refrain from referring to donated tissue as a “product.” All
      packaging for donated tissue should include a statement indicating that the package contains
      donated tissue and is a gift of life. The tissue community should educate health care
      professionals, including physicians who use donated tissue, about the donor family perspective
      and the nature of the gift. The tissue community should also work to raise awareness among
      funeral services professionals and strengthen their commitment to follow the wishes of donor
      families. The tissue community must pay all expenses incurred by the donor family that are
      directly associated with tissue donation, including any increased funeral charges.


      As approved by the NKF National Donor Family Council Executive Committee and the NKF Board of Directors,
      September 25, 2000

      NOTE: This Policy Statement is subject to further revision based on a survey of donor families currently in
      progress




Tissue Donation: Informed Consent                          17                                           OEI-01-00-00440
                                                                                              APPENDIX A




                                NATIONAL DONOR FAMILY COUNCIL
                                     EXECUTIVE COMMITTEE
                INFORMED CONSENT POLICY FOR TISSUE DONATION
 As with organ donation, the National Donor Family Council (NDFC) of the National Kidney Foundation
 believes that a crucial element of the tissue donation process is the informed consent of the donor family.
 With respect to tissue donation, the informed consent of the donor family must, at an absolute minimum,
 include a voluntary decision based on full disclosure of the facts.
 Full disclosure includes the following elements:

        1. Donor families should be given a general explanation of the tissue process, including:
 C      medical and social history
 C      communicable disease testing
 C      laboratory testing
 C      medical suitability
 C      how tissue is recovered, processed, stored and distributed
        2.	 Donor families must be told what tissue can be recovered from their loved ones based on
            medical suitability. If heart valves will be recovered, families must be informed that the heart
            will be removed from the donor’s chest and sent to a facility where the valves will be removed.
            If the entire eye will be removed for corneal donation, families should be informed.

        3.	 Donor families must be informed that tissue can be used or modified in various ways for
            transplantation in a life-saving capacity, transplantation in a life-enhancing capacity, and
            medical research or education.

        4. Donor families must be told that they have the right to limit or restrict the use of the tissue.

        5.	 Donor families must be told about the likelihood that the donated tissue will be stored, how it
            will be stored, the duration of storage, and the possibility that the tissue may not be utilized.

        6.	 The completed consent form must be reviewed with the donor family before final consent, and
            a copy should be offered to the family. Other written material explaining tissue donation
            should be offered to the family.

        7.	 Donor families must be given the option of receiving acknowledgment of their gifts. This
            acknowledgment should include both disposition and any recipient information available at that
            time, while protecting the anonymity of both donor and recipients. To obtain additional
            information about the gift, the donor family should be provided with contact information
            (including phone number and address) for the recovery agency.
 As approved by the NKF National Donor Family Council Executive Committee and the NKF Board of Directors, September

 25, 2000

 NOTE: This Policy Statement is subject to further revision based on a survey of donor families currently in progress




Tissue Donation: Informed Consent                         18                                          OEI-01-00-00440
                                                                               APPENDIX B


             Model Elements of Informed Consent for Organ and
                             Tissue Donation
                        American Association of Tissue Banks
                    Association of Organ Procurement Organizations
                           Eye Bank Association of America

 Human organ and tissue transplantation has become an important and growing part of
 modern medical practice. Advances in medical science have made it possible for millions
 of Americans to receive these life-saving and life-enhancing gifts. None of this would be
 possible, however, were it not for the tens of thousands of donors and donor families who
 give their organs and tissues to help their fellow men and women.

 The decision to donate must, therefore, be an informed consent, and it must be conducted
 under circumstances that are sensitive to the consenting person’s situation. Information
 concerning the donation should be presented in language and in terms that are easily
 understood by the consenting person. The consent should be obtained under
 circumstances that provide an opportunity to ask questions and receive informative
 responses. An offer should be made regarding the availability of a copy of the signed
 consent form, and information should be provided regarding ways to reach the recovery
 organization following donation. Consent should be obtained in accordance with federal,
 state and/or local laws and/or regulations. The person seeking the consent should be
 trained to appropriately answer any questions that the consenting person may have. In
 addition, coercion should not be exerted in any manner, nor monetary inducement offered
 to obtain consent for donation. The identification of who may be the appropriate person to
 consent to donation, and whether the consent of any person in addition to the donor
 needs be obtained, should be evaluated in accordance with the applicable laws and
 organizational policy and is not addressed in this statement.

 The following list of “Basic Elements of Informed Consent” is intended to highlight the
 information that may be considered critical to informed decision making by a family
 member or other legally authorized person, who is being approached for consent to organ
 and/or tissue donation. This listing, whether communicated verbally or included on
 consent forms, is not intended to preempt any applicable federal, state, or local laws or
 regulations that may require more or less information to be disclosed for informed consent
 to be legally effective.

 Basic Elements of Informed Consent

 In seeking informed consent, the following information should be provided to the person(s)
 being approached for consent:

 C	     A confirmation/validation of the donor’s identity and his or her clinical terminal
        condition.

 C      A general description of the purposes (benefits) of donation.


Tissue Donation: Informed Consent                19                                  OEI-01-00-00440
                                                                             APPENDIX B




 Policy Statement on Informed Consent
 Page 2

 C	      Identification of specific organs and/or tissues (including cells) that are being
         requested for donation (with subsequent information provided on specific gifts
         recovered).

 C	      An explanation that the retrieved organs/tissues may be used for transplantation,
         therapy, medical research, or educational purposes.

 C	      A general description of the recovery process (including timing, relocation of donor
         if applicable, contact information, etc.).

 C	      An explanation that laboratory tests and a medical/social history will be completed
         to determine the medical suitability of the donor, including an explanation that
         blood samples from the donor will be tested for certain transmissible diseases.

 C	      An explanation that the spleen, lymph nodes, and blood may be removed, and
         cultures may be performed, for the purpose of determining donor suitability and/or
         used to determine compatibility of donor and recipient.

 C	      A statement granting access to the donor’s medical records, and that the medical
         records may be released to other appropriate parties.

 C	      An explanation that costs directly related to the evaluation, recovery, preservation,
         and placement of the organs and tissues will not be charged to the family.

 C	      An explanation regarding the impact the donation process may have on burial
         arrangements and on appearance of the body.

 C	      Any additional information required by federal, state and/or local laws and/or
         regulations.

 Additional Elements of Informed Consent

 In some situations, there may be additional information that should be known by the
 consenting person(s), or that might be helpful for family decision making. At a minimum, if
 the donor family inquires about any of these or additional matters, explanations should be
 provided.

 The guiding principle for the use of these “Additional Elements of Informed Consent” is to
 advance simplicity and reasonableness in seeking informed consent, i.e. include these
 elements or additional comments if they are appropriate and might clarify any


Tissue Donation: Informed Consent               20                                 OEI-01-00-00440
                                                                               APPENDIX B




  Policy Statement on Informed Consent
  Page 3

  exigencies. For example, if there is the likelihood that the patient will become a Medical
  Examiner’s case, then it should be appropriate to so inform the family. If it is unlikely that
  donated tissue is going to be used for aesthetic surgery, then it would not be reasonable
  to address this issue in the family approach.

  One or more of the following elements of information may also be appropriate for
  communication to the person(s) being approached for consent, depending upon the
  circumstances surrounding the donation and the potential gift(s):

  C	      A description of any involvement by the Medical Examiner and/or Coroner,
          including an explanation that an autopsy may be performed.

  C	      An explanation that transplantation may include reconstructive and aesthetic
          surgery.

  C	      A reference to the possibility that the final gift may take a different form than
          originally recovered.

  C	      An explanation that multiple organizations (nonprofit and /or for profit) may be
          involved in facilitating the gift(s).

  C       Reference to the possibility that tissue and/or organs may be transplanted abroad.




                                    American Association of Tissue Banks

                                    Association of Organ Procurement Organizations

                                    Eye Bank Association of America


                                                                             November 30, 2000




Tissue Donation: Informed Consent                21                                  OEI-01-00-00440
                  Comments from the
         Department of Health and Human Services   APPENDIX C




Tissue Donation: Informed Consent   22                OEI-01-00-00440
                                                                              APPENDIX D

                                           Endnotes

1. The National Organ Transplant Act specifies that organ procurement organizations must be
nonprofit entities, establishes requirements for their service area, and imposes certain
organizational and staffing requirements. (42 U.S.C., Section 273(b))

2. Of the tissue bank officials we interviewed, five banks only process and distribute tissue; they
do not recover tissue and would not be directly involved in obtaining consent. In addition, eight
banks that recover tissue also do some processing and distribution.

3. “AATB Statement of Ethical Principles,” adopted November 1994.

4. 42 U.S.C., Section 274e. This is the one provision of the National Organ Transplant Act that
specifically addresses human tissue. The act defines organ to include “bone marrow, cornea, eye,
bone, and skin or any subpart thereof,” as well as vascular organs such as kidney, liver, heart,
lung, and pancreas.

5. The Act specifies that the term “‘valuable consideration’ does not include the reasonable
payments associated with the removal, transportation, implantation, processing, preservation,
quality control, and storage of a human organ.”

6. The web sites of the major processing firm contain information and press releases on new
products and uses. Web sites of all the for-profit firms that we examined have a prominently
displayed category addressing investor relations, as well.

7. Often cited examples include enhancements of lips or other body parts among Hollywood
starlets. During our visit to one tissue processing firm, we were struck by framed blowups of
covers from various fashion magazines that were displayed prominently on the walls of the
reception area.

8. American Medical Association Policy H-475.992

9. 21 C.F.R. 1270.21, added at 62 Fed.Reg. 40,445, July 29, 1997.

10. Organ donation generally requires that the donor be declared brain dead (i.e., death through
cessation of neurologic function), rather than suffering cardiac death. A small number of total
deaths — perhaps 12,000 - 15,000 at the most — meet this criteria in any given year.

11. U.S. Department of Health and Human Services, Office of Inspector General, “Medicare
Conditions of Participation for Organ Donation: An Early Assessment of the New Donation
Rule,” (OEI-01-99-00020), August 2000.

12. 42 C.F.R., section 283.45, added at 63 Fed.Reg 33,875, June 22, 1998.



Tissue Donation: Informed Consent                23                                  OEI-01-00-00440
                                                                           APPENDIX D

13. U.S. Department of Health and Human Services, “Roles and Training in the Donation
Process: A Resource Guide,” September 2000, available at http://www.organdonor.gov.

14. 21 C.F.R., Parts 16 and 1270, added at 62 Fed. Reg. 40,429, July 29, 1997. The FDA issued
these regulations under the legal authority of section 361 of the Public Health Service Act. This
section authorizes the Secretary to make and enforce regulations judged necessary to prevent the
introduction, transmission, or spread of communicable diseases.

15. The original Uniform Anatomical Gift Act was first developed in 1968 by the National
Conference of Commissioners on Uniform State Laws. Many States have incorporated the
features of a revised version developed in 1987.




Tissue Donation: Informed Consent              24                                 OEI-01-00-00440
